Department of Homeland Security
   Ofﬁce of Inspector General


                  CBP's Handling of 
 

             Unaccompanied Alien Children 
 





OIG-10-117                                 September 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington. DC 20528




                          SEP - 9 2010           8Hom~land
                                                  -'~,:!~,., SecurIty

                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses Customs and Border Protection's compliance with the Flores
Settlement Agreement in the treatment of unaccompanied alien children in its custody. It
is based on interviews with employees and officials of relevant agencies, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                c'~8Mt--
                                      Assistant Inspector General for Inspections
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 
 


Background ..........................................................................................................................2 
 


Results of Review ................................................................................................................5 
 


  CBP’s Compliance With Terms of the Flores Agreement................................................5
 
 

  Recommendations...........................................................................................................11
 
 

  Management Comments and OIG Analysis ...................................................................11
 
 


  Emergency Medical Assistance ......................................................................................12
 
 

  Recommendations...........................................................................................................15
 
 

  Management Comments and OIG Analysis ...................................................................15
 
 


  Toilets and Sinks.............................................................................................................17
 
 

  Recommendations...........................................................................................................18
 
 

  Management Comments and OIG Analysis ...................................................................18
 
 


  Improvements Needed in Training in Flores Agreement Requirements ........................21
 
 

  Recommendations...........................................................................................................23
 
 

  Management Comments and OIG Analysis ...................................................................23
 
 


  Improvements Needed in Maintaining Unaccompanied Alien Children Information....24
 

  Recommendations...........................................................................................................26
 
 

  Management Comments and OIG Analysis ...................................................................26
 
 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................28
 
 

     Appendix B:           Management Comments to the Draft Report .......................................29
 
 

     Appendix C:           Major Contributors to This Report ......................................................33
 
 

     Appendix D:           Report Distribution .............................................................................34
 
 


Abbreviation
     BP                    Border Patrol              
         

     CBP                   Customs and Border Protection 
 

     CRCL                  Civil Rights and Civil Liberties 
 

     DHS                   Department of Homeland Security 
 

     EMT                   Emergency Medical Technician 
 

     HSA                   Homeland Security Act of 2002
 

     OBP                   Office of Border Patrol 
 

     OFO                   Office of Field Operations 
 

     OIG                   Office of Inspector General 
 

     UAC                   Unaccompanied Alien Children 
 

     VLC                   Virtual Learning Center 
 

OIG
 
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Flores v. Reno Settlement Agreement governs the policy for
                the treatment of unaccompanied alien children in federal custody.
                Unaccompanied alien children are minors less than 18 years old
                who arrive in the United States without a parent or legal guardian
                and are in the temporary custody of federal authorities because of
                their immigration status. The Department of Homeland Security is
                bound by the Flores v. Reno Settlement Agreement, which includes
                requirements that immigration officials detaining minors provide
                (1) food and drinking water, (2) medical assistance in the event of
                emergencies, (3) toilets and sinks, (4) adequate temperature control
                and ventilation, (5) adequate supervision to protect minors from
                others, and (6) separation from unrelated adults whenever possible.

                Customs and Border Protection is one of the Department of
                Homeland Security’s primary immigration enforcement agencies
                for handling unaccompanied children. Customs and Border
                Protection personnel apprehend, process, and detain
                unaccompanied alien children intercepted along the borders and at
                ports of entry for attempting to enter the United States illegally.

                Based on our site visits to 30 Border Patrol stations and ports of
                entry, select document reviews, and independent observations, we
                concluded that Customs and Border Protection was in compliance
                with the general provisions of the Flores v. Reno Settlement
                Agreement. Although we did not identify any significant
                violations of the agreement, we are recommending that the agency
                (1) evaluate its food-purchasing and contracting methods to ensure
                efficient use of resources; (2) ensure that detainees are informed of
                the safety of drinking water provided in hold rooms; (3) determine
                whether unaccompanied alien children are injured or require
                medical attention; (4) document medical care provided; (5) ensure
                that detention facilities maintain sufficient inventories of medical
                supplies; (6) ensure that toilets and sinks are routinely inspected
                and work properly; (7) verify that all required personnel complete
                the mandatory annual refresher Flores v. Reno Settlement
                Agreement training; and (8) accurately and consistently document
                required information pertaining to unaccompanied alien children.



                  CBP’s Handling of Unaccompanied Alien Children 


                                      Page 1 

Background
                           The Department of Homeland Security’s (DHS) Customs and
                           Border Protection (CBP) protects United States borders and
                           enforces immigration laws by apprehending and detaining aliens
                           who attempt to enter the country illegally. Juvenile detainees
                           include unaccompanied alien children (UAC), individuals who are
                           less than 18 years old with no lawful immigration status and no
                           parent or legal guardian in the United States available to provide
                           care and physical custody. 1 These individuals must be treated
                           according to provisions of the Flores v. Reno Settlement
                           Agreement (Flores Agreement), which set forth policy for the
                           detention, treatment, and release of minors in CBP custody.

                           Authorities

                           The Flores Agreement is the result of a settlement reached in a
                           federal class-action lawsuit filed against the Immigration and
                           Naturalization Service, a former subcomponent of the Department
                           of Justice responsible for apprehending and detaining minors who
                           were in the United States illegally. The suit challenged the arrest,
                           processing, detention, and release of UAC who were in the country
                           illegally and later detained by the U.S. government. The
                           Department of Justice and a coalition of immigrants’ rights groups
                           negotiated a settlement in August 1996. The Immigration and
                           Naturalization Service agreed to abide by stipulations of the
                           agreement for processing, detaining, and releasing minors held in
                           its custody. The Flores Agreement established guidance on the
                           treatment of minors while in the custody of immigration officials,
                           and recognized the particular vulnerability of UAC while detained
                           without a parent or legal guardian present. The Flores Agreement
                           includes a requirement that immigration officials hold minors in
                           facilities that provide (1) access to food and drinking water,
                           (2) medical assistance in the event of emergencies; (3) toilets and
                           sinks; (4) adequate temperature control and ventilation;
                           (5) adequate supervision to protect minors from others; and
                           (6) separation from unrelated adults whenever possible.

                           In March 2003, the Homeland Security Act of 2002 (HSA) was
                           implemented, consolidating several agencies to create DHS. The
                           HSA delegated the apprehension, detention, transfer, and
                           repatriation of UAC to DHS.


1
    Homeland Security Act of 2002, Public Law 107-296, 462(g), November 2002.


                             CBP’s Handling of Unaccompanied Alien Children

                                                 Page 2
DHS Responsibilities for Handling Unaccompanied Alien
Children

Within DHS, CBP and Immigration and Customs Enforcement
(ICE) share responsibility for UAC. CBP apprehends, processes,
and detains the majority of UAC arrested along the U.S. borders.
ICE arrests UAC inside the United States, and removes
inadmissible UAC after Immigration Judges or United States
Courts issue removal orders. ICE also coordinates the placement
and long-term detention of UAC.

The Office of Border Patrol (OBP) and Office of Field Operations
(OFO) are the two entities within CBP that process UAC. OBP’s
mission includes preventing illegal aliens, smugglers, narcotics,
and other contraband from entering the United States. OFO is
responsible for processing people, goods, and conveyances
entering and leaving the United States at its ports of entry along
land borders and at seaports.

DHS must abide by the terms of the Flores Agreement, which
guides the treatment of alien children in federal custody. The
agreement mandates that juveniles be afforded appropriate care
and protection given their age and vulnerability.

Apprehension, Processing, and Short-Term Detention of UAC

In FY 2009, Border Patrol (BP) agents encountered and
apprehended about 18,000 UAC while patrolling border areas,
conducting routine checks at highway checkpoints, or performing
border security enforcement operations. From March to
September 2009, OFO apprehended approximately 2,000 UAC at
ports of entry. Prior to March 23, 2009, OFO did not track UAC
statistics separately from other juveniles.

CBP agents and officers process juveniles at CBP facilities to
determine their names, ages, citizenship, and whether they are
accompanied or unaccompanied. Processing also includes
querying federal government immigration and criminal databases
to determine whether juveniles have the right to remain in the
country and whether they have committed any criminal offenses.
When CBP confirms that juveniles have entered the country
illegally and unaccompanied, they are considered UAC and
processed for immigration violations.




  CBP’s Handling of Unaccompanied Alien Children

                      Page 3
                         UAC brought to CBP facilities are detained in hold rooms. OBP
                         defines hold rooms as detention cells or search or interview rooms
                         where individuals are temporarily detained pending processing or
                         transfer. OFO defines hold rooms as areas at ports of entry where
                         detained individuals may be temporarily held pending secondary
                         processing, which involves verifying documents and conducting
                         interviews. UAC are held in these secure areas on a short-term
                         basis while their cases are being processed. Short-term detention
                         in CBP facilities is generally less than 24 hours; however, CBP’s
                         goal is to remove UAC from its custody within 12 hours after their
                         apprehension.

                         Figure 1 depicts the usual flow of apprehending, processing, and
                         detaining UAC while in DHS custody.

                              Figure 1. Flow of UAC Apprehension, Processing, and Detention 2




                         Source: Customs and Border Protection



2
 DHS’ Immigration and Customs Enforcement is also responsible for apprehending, processing, and
detaining juveniles, to include UAC, who illegally enter the country.


                           CBP’s Handling of Unaccompanied Alien Children

                                               Page 4
Results of Review
     CBP’s Compliance With Terms of the Flores Agreement
          CBP is complying with the provisions of the Flores Agreement as
          described in the following sections of this report.

                 Food and Drinking Water

                 The Flores Agreement requires that UAC in CBP custody have
                 access to food and drinking water. To comply with the agreement,
                 CBP established internal policies requiring that food and drinking
                 water be provided to UAC.

                 OBP issued a Hold Room and Short Term Custody policy, dated
                 June 2, 2008. According to the policy, meals must be offered to
                 UAC at least every six hours. The policy also requires that two of
                 the meals served within the 24-hour period must be hot, and that
                 juveniles must have regular access to snacks, milk, and juice.

                 OFO’s August 8, 2008, policy, Secure Detention, Transport and
                 Escort Procedures at Ports of Entry, includes requirements for
                 juveniles to have access to meals, snacks, and drinks at any time.
                 This policy also urges officers to be sensitive to cultural and
                 religious dietary restrictions whenever possible.

                 At the 17 BP stations and 13 ports of entry we visited, meals,
                 snacks, drinking water, and other beverages were available to
                 UAC. Figures 2 and 3 list the types of food served at the facilities
                 we visited.




                   CBP’s Handling of Unaccompanied Alien Children 
 


                                       Page 5 
 

Figure 2. Meals, Snacks, and Beverages at Select Border Patrol Stations

    OBP Sector      OBP Station                     Meals                         Snacks               Beverages
                  Tucson Coordinating      Burger King contract for       Peanut butter and cheese     Water, juice,
                        Center               hamburgers, chicken          crackers, fruit                 milk
                                            sandwiches, side salads
    Tucson
                        Nogales          Chili packets, frozen burritos      Peanut butter and          Water, juice
                                                                              cheese crackers

                        Sonoita                  Chili packets               Peanut butter and          Water, juice
                                                                              cheese crackers

                        El Paso                                          New Facility
                                                   Detainees processed at El Paso Station Processing Center

                    El Paso Station            Frozen burritos                  Granola bars           Water, juice
    El Paso        Processing Center

                      Ft. Hancock              Frozen burritos                  Granola bars           Water, juice

                        Fabens                 Frozen burritos                 Granola bars,            Water, juice
                                                                                 crackers

                      Santa Teresa             Frozen burritos                  Granola bars           Water, juice

                        Detroit              Meals Ready to Eat 3            Peanut butter and          Water, juice
                                                                              cheese crackers
    Detroit
                       Marysville             Meals Ready to Eat                    None                  Water

                       Gibraltar              Meals Ready to Eat                    None                  Water

                      Chula Vista             Meals Ready to Eat             Peanut butter and            Water,
                                                                              cheese crackers            powdered
                                                                                                           juice

                     Imperial Beach          Meals Ready to Eat              Peanut butter and            Water
    San Diego                                                                 cheese crackers

                      Brown Field             Meals Ready to Eat             Peanut butter and            Water
                                                                              cheese crackers

                       El Cajon               Meals Ready to Eat             Peanut butter and            Water
                                                                              cheese crackers

                      Dania Beach                Pasta bowls               Fruit cups, applesauce,     Water, juice,
    Miami                                                                         crackers                milk

                    West Palm Beach              Pasta bowls                 Peanut butter and         Water, juice,
                                                                              cheese crackers             milk
Source: OIG observations during site visits




3
  Meals Ready to Eat are prepackaged microwaveable food. Packages include items such as pancakes or
omelets for breakfast, and spaghetti, chicken pasta, beef ravioli, beef stroganoff, and chili with beans for
lunch or dinner.


                              CBP’s Handling of Unaccompanied Alien Children

                                                     Page 6
Figure 3. Meals, Snacks, and Beverages at Select Ports of Entry

  OFO Field       OFO Facility                       Meals                          Snacks              Beverages
   Office
 Tucson               Nogales                     Chili packets                Peanut butter and        Water, juice
                                                                                cheese crackers

                Paso Del Norte Bridge            Frozen burritos                   Snack bars           Water, juice

 El Paso               Fabens                    Frozen burritos              Fruit cups, crackers        Water,
                                                                                                         Gatorade

                    Santa Teresa                 Frozen burritos            Fruit cups, peanut butter   Water, juice
                                                                              and cheese crackers

                 Detroit Ambassador         Noodle cups, pasta bowls             Granola bars           Water, juice
 Detroit                Bridge

                   Detroit Canada                  Noodle cups                Fruit cups, crackers      Water, juice
                       Tunnel

                 Blue Water Bridge          Noodle cups, pasta bowls        Chips and breakfast bars    Water, juice

                     San Ysidro                  Brown bag meal:                 Granola bars           Water, juice
                                            turkey sandwich, macaroni
                                          salad, carrots, and granola bar
 San Diego
                     Otay Mesa                  Brown bag meal:                  Granola bars           Water, juice
                                           turkey sandwich, macaroni
                                                 salad, carrots



                      San Diego                                      None                                  Water
                International Airport

                 Miami International               Pasta bowls                  Chips and Jell-O        Water, juice
                      Airport
 Miami
                   Ft. Lauderdale           Macaroni and cheese cups,                Cereal             Water, juice,
                International Airport             noodle cups                                              milk

                  West Palm Beach           Noodle cups, pasta bowls                 None                  Water
                International Airport
Source: OIG observations during site visits

                          Food

                          OBP and OFO agents and officers followed similar practices when
                          providing meals and snacks to UAC detained at BP stations or
                          apprehended at ports of entry. Typically, OBP and OFO provide:

                                       meals every 4 to 6 hours after the first meal in custody; and
                                       snacks, milk, or juice as often as requested, and in
                                       unlimited quantities.

                          Each CBP facility either maintained an inventory of food or had a
                          process in place to purchase meals and snacks on an as-needed
                          basis. Three facilities, Marysville and Gibraltar BP stations and

                             CBP’s Handling of Unaccompanied Alien Children 
 


                                                       Page 7 
 

West Palm Beach International Airport, stocked meals, but did not
keep snacks readily available because of minimal UAC encounters.
Each facility averaged contact with fewer than ten UAC per year.
Each of these facilities had established procedures to purchase
snacks as needed. San Diego International Airport handled fewer
than five UAC a year and did not maintain a supply of food at its
location. When CBP officials encounter UAC at this airport, the
officials purchase food for them from a nearby food court. At the
time of our visit to the El Paso station, OBP had recently occupied
the building; therefore, detainees were being processed at the El
Paso Processing Center. OBP officials told us that processing
should begin at the El Paso station within a few weeks.

Even though food was provided to UAC in custody, OBP and OFO
personnel described large quantities of food being discarded
because UAC did not eat the meals offered. For example, UAC
were provided food such as chili, macaroni salad, and turkey
sandwiches; however, many refused to eat these items based on a
lack of appeal, cultural preferences, or other reasons. CBP
managers explained that agents and officers often compensate for
such occurrences by purchasing food from the facilities’ vending
machines or in nearby fast food restaurants. Agents and officers
said that when UAC refuse to eat the food offered, they have
shared their own lunches and dinners with them.

Some stations and ports of entry provided meals that they
considered appealing to children. For example, a Tucson BP
station contracted with Burger King to provide hamburgers,
sandwiches, and side salads. At Miami International Airport,
officers assembled meal packages from items purchased in bulk.
These items included microwavable pasta dishes, potato chips,
Jell-O, and juice boxes. Agents and officers at BP stations and
OFO ports of entry in El Paso said that UAC had no problems
eating the variety of microwavable burritos they served as meals.
In addition, OFO managers said that this arrangement works well
in ports of entry where the volume of UAC is difficult to predict
and purchasing nonperishable food is more practical.




  CBP’s Handling of Unaccompanied Alien Children 
 


                      Page 8 
 

Examples of meals and snacks available to UAC




Source: DHS OIG

Drinking Water

During our site visits, we observed that drinking water was
accessible to all UAC detained in CBP facilities through a variety
of methods, including plastic coolers, water fountains, bottled
water, and combined toilet-sink units. The combined units were
located in hold rooms at BP stations, and designed with the sinks
located directly above the toilet. These sinks also served as
drinking fountains that dispensed regular tap water from a separate
water supply than that connected to the toilet. Of the 17 BP
stations that we visited that used these combined units, 14 stations
also offered bottled water or water from large plastic coolers to
UAC. The remaining three stations used the combined units as the
only source of drinking water.

BP managers informed us that having water available in bottles
and coolers stemmed from complaints filed by UAC that they were
drinking water from toilets. An official from DHS’ Office for
Civil Rights and Civil Liberties (CRCL) informed us that
complaints had been filed by or on behalf of UAC who believed
that since the sink was located directly above the toilet, the

  CBP’s Handling of Unaccompanied Alien Children

                      Page 9
drinking water came from the toilet itself. The CRCL
representative alerted OBP officials of this situation, which
resulted in some stations providing water from coolers or bottles.
Other BP stations indicated in English and Spanish above the
toilet-sink units that water from the combined unit was safe to
drink, as illustrated below.




                 Source: DHS OIG.

At the newer BP stations we visited, hold rooms had combined
toilet-sink units. The combined units have the sink on one side and
the toilet on the other. UAC detained in hold rooms were less
apprehensive about drinking water from this type of configuration.
                 Toilet-sink unit at newer Border Patrol stations




                Source: DHS OIG

Although drinking water was accessible to UAC in OBP facilities,
one station did not have disposable cups readily available to hold
water from the cooler. At another station, the water faucet in the
combined toilet-sink unit was inoperable. In hold rooms at three
BP stations, the toilet-sink units had wet toilet paper or paper


  CBP’s Handling of Unaccompanied Alien Children

                     Page 10
     towels in or around the units, making it appear that the area may
     not be sanitary and the water from the sink unsafe to drink.

     At OFO ports of entry, water is provided to UAC from fountains
     located in secondary screening areas or from bottles. When UAC
     are placed in hold rooms, they have access to water through toilet-
     sink units as described for OBP. Every OFO facility we visited
     had drinking water available either in bottles or through drinking
     fountains in addition to toilet-sink combinations inside hold rooms.

     According to OBP and OFO juvenile detention policies, milk could
     be available for UAC, as well as other categories of detainees
     including babies, toddlers, and pregnant women. At the time of
     our fieldwork, four of the 30 facilities we visited served milk. In
     addition, most facilities made other beverages available to UAC,
     such as orange or apple juice. Figures 2 and 3 list the beverages
     available to UAC at the sites we visited.

Recommendations
     We recommend that the Chief, Office of Border Patrol, and
     Assistant Commissioner, Office of Field Operations:

     Recommendation #1: Evaluate the current methods for
     purchasing food to ensure that purchases are efficient and cost-
     effective.

     Recommendation #2: Display information near the toilet-sink
     units in all hold rooms to indicate that the water is safe to drink.


Management Comments and OIG Analysis
     We evaluated CBP’s written comments and have made changes to the
     report where we deem appropriate. A summary of CBP’s written
     responses to our recommendations and our analysis of the responses
     follow each recommendation. A copy of CBP’s response, in its
     entirety, appears in Appendix B.

     CBP Response: CBP concurred with Recommendation 1.

     Border Patrol sectors will identify current best practices and
     provide food items that will be well received by the
     unaccompanied alien children (UAC). By identifying meals that
     have appeal, are culturally preferred, and cost-effective, we will


       CBP’s Handling of Unaccompanied Alien Children

                          Page 11
            eliminate waste and redundancy. The Border Patrol sectors will
            implement best practices by January 31, 2011.

            The Office of Field Operations (OFO) Logistics will survey the
            field offices on the types of food that seem to be popular with the
            “typical child” and share best practices with the field offices and
            Office of Border Patrol (OBP).

            Due Date: January 31, 2011

            OIG Analysis: This recommendation is resolved and open
            pending our receipt of the Office of Border Patrol (OBP) and
            Office of Field Operation’s (OFO) best practices on serving foods
            to UAC in their custody that are appealing, culturally preferred,
            and cost-effective.

            CBP Response: CBP concurred with Recommendation 2.

            OBP will issue field guidance and conduct follow-up conference
            calls with sector field staff by October 21, 2010, to ensure that
            signage is properly displayed to inform everyone that the water is
            drinkable.

            By December 1, 2010, OFO will display information near the
            toilet-sink units in all hold rooms to indicate that the water is safe
            to drink.

            Due Date: December 1, 2010

            OIG Analysis: This recommendation is resolved and open
            pending our receipt of Border Patrol (BP) guidance and OFO
            confirmation that signs indicating water from toilet-sink units is
            safe to drink have been properly displayed.


Emergency Medical Assistance
     The Flores Agreement requires that UAC have access to emergency
     medical assistance. OBP’s Policy for Encounters with Injured Subjects
     requires that all individuals who are injured or require medical assistance
     when encountered by BP agents be provided access to medical treatment.
     In addition, OBP’s Hold Room and Short-Term Custody policy specifies
     that a qualified medical professional, such as an emergency medical
     technician (EMT), paramedic, or physician, evaluate detainees who
     require medical attention or display symptoms of serious infectious


              CBP’s Handling of Unaccompanied Alien Children

                                 Page 12
diseases or contagions such as tuberculosis, severe acute respiratory
syndrome, or pandemic influenza.

OFO officers must provide medical assistance at ports of entry when
encountering UAC who need medical care. Specifically, OFO’s policy,
Secure Detention, Transport and Escort Procedures at Ports of Entry,
requires that all persons placed in a secure area at its facilities be asked
whether they have a medical problem or condition that may require
medical attention.

Many BP agents and OFO officers we interviewed stated that juveniles
occasionally reported having medical conditions. However, according to a
CRCL official, juveniles may be too intimidated to report an injury or
illness during processing. OFO policy requires officers to ask all
detainees whether they need medical treatment, while OBP policy does
not have a similar requirement. BP agents may observe that juveniles
require medical assistance or juveniles may request such assistance, but
OBP policy does not require the agent to ask. Requesting information
from juveniles about their medical condition might be a useful tool in
assessing their physical well-being.

CBP managers, agents, and officers said that when they apprehend and
process UAC, CBP employees identify injured juveniles. In cases of
medical emergencies, agents and officers said that they transport or escort
UAC to hospitals and monitor their condition. When appropriate, UAC
are returned to BP stations or OFO ports of entry to complete
administrative processing.

OFO’s Secure Detention, Transport and Escort Procedures at Ports of
Entry policy requires officers to complete an Individual Caution Sheet on
every UAC when they observe obvious medical conditions or UAC claim
to have an injury or illness. A sector within OBP issued guidance,
Juvenile Directive, dated May 2003, requiring its BP agents to record
health-related complaints from juveniles in the narrative portion of Form
I-213, a document CBP completes when aliens are deportable.

BP agents reported documenting instances when UAC were transported to
hospitals for medical care or treated by EMTs. In addition, employees who
process UAC said that they sometimes include a description of health
problems, medical emergencies, and any treatment provided on Form I-213.
However, a BP official said that OBP does not have a nationwide
requirement to document that type of information on Form I-213. A CRCL
official commented that its office’s review of Form I-213 indicated that
these forms do not always identify medical assistance provided to UAC
when CRCL investigates complaints filed by UAC or their representative.


          CBP’s Handling of Unaccompanied Alien Children 
 


                              Page 13 
 

More consistent documentation of medical assistance given to UAC could
provide increased evidence of CBP’s compliance with the Flores
Agreement.

According to OBP personnel, all agents are certified to provide
cardiopulmonary resuscitation and first aid. Additionally, OBP has a
cadre of 734 trained EMTs nationwide who are able to evaluate the
severity of an injured or ill detainee’s medical condition to determine the
appropriate methods of treatment or contact emergency medical services
(EMS) for conditions that require special medical attention. When an
OBP facility does not have EMTs available to evaluate a medical
emergency, agents contact EMS for assistance.

OFO managers informed us that they had 104 certified EMTs, and 460
officers trained as first responders. The managers said OFO also certifies
officers in cardiopulmonary resuscitation and first aid during basic
training.

Since certain minor injuries may not warrant treatment by EMS, CBP
facilities should have first aid kits readily available and supplied with
basic items, such as adhesive bandages, sterile pads, and cold packs, to
treat detainees. Of the 30 CBP facilities we visited, 23 had first aid kits
with a sufficient inventory of medical supplies. However, six BP stations
and one OFO port of entry had first aid kits that either were empty or
contained minimal basic first aid items. In one OBP sector, all four
stations we visited had first aid kits that were completely or almost empty.
Overall, CBP personnel said that they recognized the need to maintain
sufficient supplies in order to provide UAC with immediate assistance for
minor medical conditions.

        Examples of first aid kits we observed




        Source: DHS OIG




         CBP’s Handling of Unaccompanied Alien Children 
 


                             Page 14 
 

Recommendations
     We recommend that the Chief, Office of Border Patrol, and
     Assistant Commissioner, Office of Field Operations:

     Recommendation #3: Establish a procedure that requires CBP
     employees who initially encounter UAC to inquire about any
     injury or illness that might require medical attention.

     Recommendation #4: Develop a process to document any
     medical assistance provided to UAC.

     Recommendation #5: Maintain a sufficient inventory of medical
     supplies in first aid kits at BP stations and ports of entry.


Management Comments and OIG Analysis
     CBP Response: CBP concurred with Recommendation 3.

     By October 31, 2010, OBP will rerelease previously issued
     guidance to reemphasize adherence to the medical and reporting
     requirements contained in the memo, dated March 20, 2009, signed
     by Chief David V. Aguilar entitled, Implementation of the William
     Wilberforce Trafficking Victims Protection Reauthorization Act of
     2008 (TVPRA, attached), the Hold Rooms and Short Term
     Custody policy issued June 2, 2008, and the Policy for Encounters
     with Injured Subjects signed on November 9, 2007.

     OFO/Admissibility and Passenger Program will reissue
     Implementation of TVPRA field guidance to all ports of entry
     (POE). Reissue will also include a reminder to complete the Initial
     Placement Referral Form, which captures the UAC medical status
     (injury/treatment/illness).

     Due Date: October 31, 2010

     OIG Analysis: The management policies OBP cites in their
     response do not address its personnel specifically asking each
     UAC whether they are ill or injured when initially encountered.
     Implementation of the William Wilberforce Trafficking Victims
     Protection Reauthorization Act of 2008 requires that a child is only
     asked how they received injuries if they show signs of torture,
     malnourishment, fatigue, or emotional abuse. The Hold Rooms
     and Short Term Custody policy and the Policy for Encounters with


       CBP’s Handling of Unaccompanied Alien Children

                          Page 15
Injured Subjects address access to medical assistance, but do not
mention inquiring about the need for medical attention due to
illness or injury.

The intent of this recommendation is to inquire of every UAC
whether they are ill or injured when initially encountered
regardless of how they physically appear. This recommendation
will remain unresolved and open until OBP establishes such a
requirement.

OFO’s policy to complete the Unaccompanied Alien Child Initial
Placement Referral Form, which captures each UAC’s medical
status, addresses this recommendation.

CBP Response: CBP concurred with Recommendation 4.

By October 31, 2010, OBP will rerelease previously issued
guidance to reemphasize adherence to the medical and reporting
requirements. This is contained in the memo dated March 20,
2009, signed by Chief David V. Aguilar entitled, Implementation
of the William Wilberforce Trafficking Victims Protection
Reauthorization Act of 2008 (TVPRA, attached), the Hold Rooms
and Short Term Custody policy issued June 2, 2008, and the Policy
for Encounters with Injured Subjects signed on November 9, 2007.

OFO will reissue UAC field guidance including a reminder to
complete the Initial Placement Referral Form, which captures the
UAC medical status (injury/treatment/illness) and any medical
assistance provided.

Due Date: October 31, 2010

OIG Analysis: The management policies cited in OBP’s response
do not include specific procedures for documenting medical
assistance provided to UAC. Implementation of the William
Wilberforce Trafficking Victims Protection Reauthorization Act of
2008 requires that a child is asked only how they received injuries
if they show signs of torture, malnourishment, fatigue, or
emotional abuse. The Hold Rooms and Short Term Custody policy
and the Policy for Encounters with Injured Subjects address access
to medical care, but do not require any documentation when
medical assistance is provided. This recommendation will remain
unresolved and open until OBP establishes a process for
documenting medical assistance provided to UAC.



  CBP’s Handling of Unaccompanied Alien Children

                     Page 16
           OFO’s policy to complete the Initial Placement Referral Form,
           which captures any medical assistance provided to UAC, addresses
           this recommendation.

           CBP Response: CBP concurred with Recommendation 5.

           By October 31, 2010, OBP will issue guidance reminding sector
           Health and Safety personnel to regularly inspect and stock medical
           supplies to ensure medical kits have the necessary supplies at all
           times.

           OFO Logistics will immediately abate this issue by contacting the
           field offices to fill the first aid kits with the necessary components.

           Due Date: October 31, 2010

           OIG Analysis: This recommendation is resolved and open
           pending our receipt of OBP’s guidance to Health and Safety
           personnel, and OFO’s communication to its field offices to
           replenish first aid kits. OFO’s communication should also include
           guidance to ensure that first aid kits continue to be properly
           stocked following OFO Logistics’ immediate replenishment of
           first aid kits that are currently under stocked.


Toilets and Sinks
           The Flores Agreement requires that minors be held in DHS
           facilities that are safe and sanitary and have access to toilets and
           sinks. According to OBP and OFO detention policies, all detainees
           will have access to properly equipped restrooms. In addition, OBP
           policy specifies that supervisors must ensure that officers are
           within visible or audible range of secure areas so they can respond
           to detainees’ requests to use the restroom.

           According to CBP personnel, toilets and sinks are always available
           to UAC. CBP agents and officers said that where restrooms are
           not located within open areas or hold rooms where UAC are
           detained, a CBP employee of like gender escorts them to the
           nearest restroom.

           We observed toilets and sinks inside hold rooms designated for
           UAC use. At each facility, we tested toilets and sink faucets to
           ensure that both worked. We noted only one toilet and one faucet
           that did not operate properly and brought that matter to the


             CBP’s Handling of Unaccompanied Alien Children

                                Page 17
     attention of CBP personnel. CBP should routinely check toilets
     and sinks to ensure that they operate properly.

Recommendation
     We recommend that the Chief, Office of Border Patrol, and
     Assistant Commissioner, Office of Field Operations:

     Recommendation #6: Routinely inspect toilets and sinks to
     ensure they are working properly.


Management Comments and OIG Analysis
     CBP Response: CBP concurred with Recommendation 6.

     Because some of our stations are leased, OBP will work closely
     with the CBP’s Office of Administration to report toilets and sinks
     that are not working properly. Furthermore, by October 31, 2010,
     OBP will rerelease previously issued guidance on the
     implementation of the TVPRA and the Hold Rooms and Short
     Term Custody policy.

     OFO will issue guidance to the Field Office to routinely check
     toilets and sinks to ensure that they are working properly.

     Due Date: October 31, 2010

     OIG Analysis: OFO’s response addresses guidance that will be
     issued to field offices to routinely inspect toilets and sinks for
     proper operation, which represents a positive step in implementing
     our recommendation. OBP’s response does not address how they
     will ensure that toilets and sinks, in either owned or leased
     facilities, are routinely inspected and working properly. In
     addition, OBP guidance previously issued on the TVPRA and Hold
     Rooms and Short Term Custody policy does not address adequate
     operation of toilets and sinks, as detailed in this report.

     The recommendation is unresolved and open pending our receipt
     of specific efforts by OBP to address this issue, and OFO’s
     guidance to the Field Office as detailed in their response.




       CBP’s Handling of Unaccompanied Alien Children 
 


                           Page 18 
 

Proper Temperature Control and Ventilation

CBP’s internal guidance incorporates the Flores Agreement
requirement for detention facilities to provide adequate
temperature control and ventilation. The Flores Agreement does
not specify the temperature range. Agents and officers explained
that they had few problems with the buildings’ temperature and
ventilation and contacted the appropriate maintenance personnel
when problems occurred.

We noted variances in the temperatures in the CBP facilities we
inspected. CBP recognizes the challenges in regulating the
temperature to suit everyone. The most common complaint from
detainees was that hold rooms were too cold. However, we
observed that blankets were available to detainees.

Supervision for UAC in Custody

The Flores Agreement requires that detained minors be placed in
the least restrictive setting appropriate to the minors’ age and
special needs if the setting is consistent with its interest to protect
the minors’ well-being and that of others. The Flores Agreement
further requires that DHS ensure the safety and well-being of
minors in its custody.

OBP and OFO policies require that UAC be under direct
supervision, with agents and officers stationed where they can
constantly observe or hear detainees. Under OBP policy, detainees
are to be temporarily held in hold rooms. According to OFO
policy, when no hold rooms exist at a port of entry, a segregated
area within the facility should be established, where feasible, away
from the traveling public, where direct supervision and control of
all detainees must be maintained.

CBP personnel use various methods to observe and supervise
UAC. Those methods include continuous direct observation or
periodic checks—typically at 15-minute intervals—of hold rooms,
one-on-one supervision, and closed circuit monitors.

Based on our observation of areas designated for UAC detainees,
we concluded that either the proximity of the hold rooms to the
processing desks or central control rooms, periodic scheduled
checks, closed circuit monitors, or combinations thereof were
sufficient to comply with the intent of the Flores Agreement.


  CBP’s Handling of Unaccompanied Alien Children

                     Page 19
       Processing area at OBP station with view of hold rooms




       Source: DHS OIG.

Although not required by the Flores Agreement, some CBP
facilities provide televisions, toys, coloring books and crayons, and
books for the UAC in their custody. In addition, we noted that
some agents and officers donate clothing for detainees.

Separation From Unrelated Adults

The Flores Agreement stipulates that unaccompanied minors in
DHS custody be separated from unrelated adult detainees unless it
is not immediately possible. When separation is impossible, UAC
detention with an unrelated adult will not exceed 24 hours.

OBP guidelines require that UAC not be detained with unrelated
adults. The guidance also requires that, when a separate temporary
hold room is unavailable, UAC be kept in an open area under
constant visual supervision of desk officers or other BP agents, if
feasible.

OFO policy requires that all detention options be considered when
detaining UAC at ports of entry, including placing detainees in
detention cells or hold rooms. The policy requires that UAC not
be held with unrelated adults, preferring that they be held in
secondary or temporary holding areas, away from the public and
under the direct supervision of officers.

We determined that CBP complies with the requirement of the
Flores Agreement regarding separating UAC from unrelated
adults.




  CBP’s Handling of Unaccompanied Alien Children

                     Page 20
            Other Issues

            Telephones

            The Flores Agreement does not require immigration officials to
            provide access to telephones. However, CBP officials said that
            UAC processed for removal receive a list of free legal service
            providers in the jurisdiction where their apprehension occurred.
            OBP’s policy requires that processing agents grant telephone
            access to UAC as soon as practicable. UAC may use telephones to
            communicate with attorneys, parents, and consular offices. OFO
            policy requires that supervisors determine whether detainees may
            use the telephone. OFO’s policy does not distinguish between
            adult and juvenile detainees; however, OFO managers said UAC
            are always given access to telephones.

            At each detention facility we visited, telephones were available and
            accessible for juvenile use. Telephones were located in areas such
            as hold rooms, interview rooms, and at processing desks.


Improvements Needed In Training in Flores Agreement
Requirements
     According to the Flores Agreement, staff must make every effort to ensure
     the safety and well-being of minors detained in CBP facilities. As such,
     the agreement requires appropriate guidance and training for employees
     regarding the terms of the agreement. However, we were unable to
     determine whether all CBP employees responsible for handling UAC
     received sufficient training to comply with this requirement.

     As part of the initial basic training curriculum, BP agents and OFO
     officers receive instruction on CBP’s responsibilities for the care and
     treatment of juveniles in its custody. CBP’s Unaccompanied Alien
     Children training course includes processing and notice of rights and
     disposition, and the treatment and placement of unaccompanied
     juveniles/minors.

     CBP developed a one-hour electronic refresher course, titled
     “Unaccompanied Juveniles/Minors and the Flores v. Reno Settlement
     Agreement,” that is available through its Virtual Learning Center (VLC).
     In addition to this training, CBP personnel said that its staff receives
     policy updates during pre-shift briefings, through email, and by policy
     memorandums.



              CBP’s Handling of Unaccompanied Alien Children

                                 Page 21
In March 2008, OBP issued an internal policy mandating that all
supervisory and nonsupervisory BP agents complete the VLC training
“Unaccompanied Juveniles/Minors and Flores vs. Reno Settlement
Agreement” each year. According to VLC records, 5, 492 agents, or
approximately 35%, completed the training in FY 2008. In FY 2009,
7,939 agents, nearly 40%, completed the training.

In October 2006, the Executive Director, OFO Mission Support, issued a
memorandum mandating that any CBP officer or agent involved in
apprehending, processing, reviewing, detaining, releasing, decision
making or transporting juveniles to take this training annually. However,
CBP has not established a process to verify that employees responsible for
handling UAC satisfy the training requirement. According to VLC
records, 17,661 OFO officers completed the course in FY 2008 and 17,897
OFO officers did so in FY 2009. Since OFO does not distinguish officers
with responsibility for handling UAC, it was unable to provide the number
of officers who were required to complete the Flores Agreement training.

CBP employees responsible for these functions made the following
comments regarding the Flores Agreement refresher course provided
through VLC:

       A BP manager could not remember taking the refresher course
       since 2007.

       A BP manager completed the Flores Agreement training during the
       late 1990s but was unable to recall whether the same information
       was covered in VLC.

       An OFO officer completed the VLC course 2 years ago and was
       unaware that it was a yearly training requirement.

       An OFO officer said that it had been a long time since receiving
       the training, and it may have been given at the basic training
       academy. The officer did not remember taking any refresher
       course through VLC.

       An OFO manager said that the delay in employees completing the
       Flores Agreement refresher course was due to rotations, temporary
       duty assignments, and agents going into active duty.

       Officers and agents who had infrequent or no contact with UAC
       said that they refer to internal detention policies when they
       encounter UAC.



         CBP’s Handling of Unaccompanied Alien Children 
 


                             Page 22 
 

A CBP manager said that the Office of Training and Development
database contains the names of all CBP agents and officers who have
completed VLC training. A VLC specialist said that statistical data on
CBP employees completing the course could be generated only by an
employee’s name, and not by OBP sectors or OFO field offices.

OBP and OFO have established policies and developed a course on Flores
Agreement requirements for employees who maintain contact with UAC.
However, CBP has not developed a tracking system to verify those
personnel responsible for processing and detaining UAC complete annual
refresher training. Such a process would provide greater assurance that
CBP complies with the Flores Agreement, as well as its own internal
guidelines.

Recommendation
       We recommend that the Chief, Office of Border Patrol, and
       Assistant Commissioner, Office of Field Operations:

       Recommendation #7: Mandate that all CBP personnel required to
       take the Flores Agreement training complete the refresher course
       annually.


Management Comments and OIG Analysis
       CBP Response: CBP concurred with Recommendation 7.

       By October 31, 2010, OBP will re-release previously issued
       guidance to ensure that the field is aware and complies with the
       provisions of the policy signed by Chief Aguilar on March 11,
       2008, entitled, Unaccompanied Juveniles/Minors and Flores vs.
       Reno Settlement Agreement Virtual Learning Center Course
       (attached). The field will be reminded of the requirement to
       complete annual training once every fiscal year through the Virtual
       Learning Center course of the same title.

       The Flores v. Reno online training course is currently available and
       a memorandum was issued in March 2009 requiring all U.S.
       Customs and Border Protection officers, who apprehend process,
       detain, and/or transport a juvenile/minor, complete this course by
       December 2009. There are 7,793 completions to June 28, 2010.

       A memorandum mandating completion of the course for 2010 has
       not been issued pending the revision of the course to include


         CBP’s Handling of Unaccompanied Alien Children

                            Page 23
            updated material from the Trafficking Victims Protection
            Reauthorization Act of 2008. This development was requested
            early in FY 2010, but was finally approved in May to start
            development. A design meeting is scheduled for July 2010 with an
            expected completion in early November 2010 for full
            implementation towards the end of the first quarter of FY 2011.

            Due Date: January 31, 2011

            OIG Analysis: OBP’s release of guidance previously issued may
            provide awareness, but does not provide assurance that required
            training will be completed. In addition, the CBP response does not
            clearly identify any specific actions taken by OFO to satisfy this
            recommendation. This recommendation remains unresolved and
            open as CBP continues its effort to establish and implement a
            process to verify that CBP personnel complete the refresher course
            annually.


Improvements Needed in Maintaining Unaccompanied Alien
Children Information
     The Flores Agreement requires that up-to-date records be maintained on
     minors placed in proceedings and remaining in custody for longer than 72
     hours. The records must include the following information:

            Biographical data such as name, date of birth, and country of
            origin
            Date placed in custody
            Date removed or released
            To whom and where placed, transferred, removed, or released
            Immigration status
            Hearing dates

     CBP is responsible for collecting and reporting UAC information within
     its jurisdiction, either electronically or manually. A coordinated record-
     keeping system can provide increased accountability for the safety and
     well-being of UAC while in CBP custody.

     OBP policy requires that each BP station maintain a detention log for
     UAC in its custody. According to OBP policy, at a minimum, these logs
     should include the following information:

            Biographical information


              CBP’s Handling of Unaccompanied Alien Children

                                 Page 24
       Alien registration number and nationality
       Reason for placement
       Date and time taken into CBP custody, transferred, and released
       Date and time juvenile coordinator notified
       Final disposition
       Times meals were provided
       Telephone use
       Showers
       Visual checks

OFO policy requires that officers record and initial the times of visual
checks, physical observations, and meals offered, eaten, or declined in a
Personal Detention Log.

During our site visits, we analyzed UAC detention log entries for
September 28, 2008, and September 28, 2009. In some locations, CBP did
not have UAC in custody on those dates. In those instances, we selected
random dates. Generally, CBP employees were consistent in documenting
UAC biographical information. However, at 28 of the 30 facilities,
detention logs did not contain the documentation CBP requires. For
example, we observed detention logs that included category headings for
required information; however, documentation was incomplete. We also
observed detention logs that did not include category headings for all
required information to be recorded.

CBP officials provided several reasons for inconsistencies in documenting
required information, including the following comments:

       Meals are documented when eaten by juveniles, but are not
       documented when a meal was offered and the juvenile refused to
       eat.
       Mealtimes are documented on a whiteboard located in the 

       processing area.
 

       Information on alien apprehensions is maintained in the
       Enforcement Case Tracking System; however, there is no
       distinction between UAC and other juveniles. OFO field offices
       keep track of UAC on a weekly basis and send the information to
       headquarters for compilation.
       Officers document meals served and phone usage in a manual log.
       Officers use an internal electronic UAC detention log. However,
       officers are not consistent in documenting meals, especially when
       UAC refuse to eat food from the existing inventory and officers
       purchase a meal or snack for them.



         CBP’s Handling of Unaccompanied Alien Children

                            Page 25
OBP has developed an electronic system, referred to as e3, which collects
comprehensive statistical information on alien apprehensions. e3 also
contains a juvenile module that can function as an electronic juvenile
detention log. This system has the capacity to differentiate between
accompanied and unaccompanied juveniles, and captures specific
information including the times meals are served, phone usage, detainee
medical conditions, and detainee arrests and releases from CBP custody.

At the time of our fieldwork, the juvenile module in e3 was under
development. OBP officials estimated that about 50 BP stations used the
juvenile module in e3 to some extent in the pilot stage. According to OBP
manager, all BP stations will use e3 after the system is completely
developed.

The Flores Agreement specifies that complete and accurate records be
maintained concerning detained UAC. A coordinated record-keeping
system can provide increased accountability for UAC’s safety and well­
being during all phases of CBP’s custody process.

Recommendation
       We recommend that the Chief, Office of Border Patrol, and
       Assistant Commissioner, Office of Field Operations:

       Recommendation #8: Establish a CBP-wide procedure to
       document required UAC information.


Management Comments and OIG Analysis
       CBP Response: CBP concurred with Recommendation 8.

       As OIG is aware, OBP has been working very closely with our
       Enforcement and Information Technology Division to proactively
       address this requirement. In June 2009, the Border Patrol
       developed a standardized Border Patrol juvenile detention
       processing module in e3, our enforcement system of record. The
       module serves as our electronic juvenile detention log. Currently,
       the Rio Grande Valley Sector has mandated the use of the juvenile
       detention module in all its stations. CBP’s Office of Information
       and Technology (OIT) has additional Border Patrol requirements
       that will improve the uniform collection of juvenile data. Once
       OIT implements the improvements by March 31, 2011, OBP will
       mandate the use of the module nationwide. OBP welcomes the
       opportunity to open dialogue with our CBP counterparts and offer


         CBP’s Handling of Unaccompanied Alien Children

                            Page 26
any lessons learned to adapt or create, if fiscally-sound and
feasible, a CBP-wide electronic juvenile detention log.

OFO continues to work with all stakeholders to develop a Joint
Operations Manual for UAC. Developments in information
technology and policy guidance are currently being worked on. In
the interim, OFO will reissue UAC field guidance, no later than
October 31, 2010.

Due Date: January 31, 2011

OIG Analysis:

CBP’s response needs to address efforts to establish and
implement a CBP-wide procedure requiring both OBP and OFO to
capture similar UAC information. The OBP response includes
their plan for full implementation of the detention processing
module in e3, which satisfies the intent of this recommendation.
OFO’s response does not provide specific details regarding the
technology and policy guidance currently under development.

OBP is agreeable to open dialogue with OFO to adapt or create a
CBP-wide electronic juvenile detention log. This could serve as a
means for achieving a uniform documentation requirement
throughout CBP. This recommendation remains unresolved and
open pending additional efforts to develop uniform documentation
requirements for UAC information.




  CBP’s Handling of Unaccompanied Alien Children 
 


                      Page 27 
 

Appendix A
Purpose, Scope, and Methodology

                   The purpose of our review was to determine whether Customs and
                   Border Protection is complying with the Flores Agreement relating
                   to UAC in CBP custody. The Flores Agreement requires that
                   following arrest, DHS detain minors, to include UAC, in facilities
                   that are safe, sanitary, and consistent with their vulnerabilities as
                   minors. DHS must provide (1) food and drinking water;
                   (2) medical assistance in the event of emergencies; (3) toilets and
                   sinks; (4) adequate temperature control and ventilation;
                   (5) adequate supervision to protect minors from others; and
                   (6) separation from unrelated adults whenever possible.

                   We conducted our fieldwork from September to December 2009,
                   interviewing 110 CBP personnel and visiting 30 CBP facilities.
                   We interviewed senior CBP officials and staff in Washington, DC;
                   Arizona, Texas, Michigan, California, and Florida. We also
                   consulted with DHS Office for Civil Rights and Civil Liberties on
                   civil rights and civil liberties issues.

                   In identifying locations for site visits, we analyzed relevant
                   documents and statistical data to determine the number of minors
                   CBP apprehended and initially detained in its holding facilities
                   during FYs 2008 and 2009. We selected a sample of complaints
                   filed with the Office for Civil Rights and Civil Liberties to
                   determine which facilities allegedly violated the Flores Agreement.
                   During the fieldwork, we visited CBP holding facilities that
                   generated high as well as low volumes of complaints to assess
                   compliance with the Flores Agreement. We notified CBP of our
                   site visits to 27 of the 30 locations we inspected. We did not
                   disclose the location of the remaining three sites. During these
                   visits, we observed detention conditions for UAC and assessed
                   whether the facilities met the provisions of the Flores Agreement.

                   We conducted this review under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections issued by the Council of the Inspectors
                   General on Integrity and Efficiency.




                     CBP’s Handling of Unaccompanied Alien Children 
 


                                         Page 28 
 

Appendix B
Management Comments to the Draft Report




                    CBP’s Handling of Unaccompanied Alien Children 
 


                                        Page 29
 
 

Appendix B
Management Comments to the Draft Report




                    CBP’s Handling of Unaccompanied Alien Children 
 


                                        Page 30
 
 

Appendix B
Management Comments to the Draft Report




                    CBP’s Handling of Unaccompanied Alien Children 
 


                                        Page 31
 
 

Appendix B
Management Comments to the Draft Report




                    CBP’s Handling of Unaccompanied Alien Children 
 


                                        Page 32
 
 

Appendix C
Major Contributors to This Report

                   Deborah Outten-Mills, Chief Inspector, Department of Homeland
                   Security, Office of Inspector General, Office of Inspections

                   Jacqueline Simms, Senior Inspector, Department of Homeland
                   Security, Office of Inspector General, Office of Inspections

                   Tatyana Martell, Inspector, Department of Homeland Security,
                   Office of Inspector General, Office of Inspections




                     CBP’s Handling of Unaccompanied Alien Children 
 


                                         Page 33 
 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Officer for Civil Rights and Civil Liberties
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Commissioner for Customs and Border Protection
                      CBP Liaison

                      Office of Management and Budget
                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                        CBP’s Handling of Unaccompanied Alien Children 
 


                                            Page 34
 
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
